HHS/OIG - Audit,"Audit of Medicaid Payments for 21 to 64 Year Old Residents of Private Psychiatric Hospitals that are Institutions for Mental Diseases in Florida,"(A-04-02-02009)
Department
of Health and Human Services
"Audit of Medicaid Payments for 21 to 64 Year Old Residents of Private Psychiatric Hospitals that are Institutions
for Mental Diseases in Florida," (A-04-02-02009)
September 30, 2002
Complete
Text of Report is available in PDF format (631 kb). Copies can also be obtained by contacting the Office of Public
Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
The objective of this audit was to determine if that State of Florida had adequate controls to preclude claiming federal
financial participation (FFP) under the Medicaid program when 21 to 64 year old residents of privately owned and operated
institutions for mental diseases (IMD) received inpatient or outpatient acute care hospital services, physician services,
laboratory, or clinic services.  Our review covered Medicaid payments for the period July 1, 1997 through June 30,
2001.  Our audit indicated that the State of Florida appeared to have some controls to prevent improper FFP claims
for medical services provided to IMD residents.  The main control instituted by the state was the revocation of the
Medicaid billing numbers of private IMDs.  We reviewed 94,678 claims totaling over $6.6 million in Medicaid payments,
and found 247 claims that were not eligible for federal reimbursement, yet FFP was claimed.  These claims represented
$92,726 in FFP.  We did not have any procedural recommendations, but we recommended the state reimburse the Federal
Government for the FFP share of the unallowable claims.